                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

11   Case Number: A-04090056
                                                                                    11           Page 1 of 1


       '
           We received an allegation that the subject, the PI on an NSF award,' provided misleading or false
           information as part of an NSF supported workshop.2 It was alleged that promises made to one of
           the attendees prior to the workshop were not kept. First, it was alleged that the subject promised
           free copies of materials developed by the PI and others at the institution under the NSF award to
           each workshop participant. Second, it was alleged that each workshop participant would receive
           a specific type of credit for attending the workshop.

           Our review showed that the award's objectives clearly stated that the developed materials would
           be distributed nationally via a publisher, not the PI or the PI'S institution. Further, the developed
           materials were expected to be available at reasonable costs to anyone interested. The purpose of
           the workshop was to expose selected participants to the materials and how they could be used. A
           second conversation with the attendee confirmed that he had no evidence that the subject had
           promised free copies of the developed materials to the participants.

           In addition, the attendee said that he received a letter from the subject prior to the workshop that
           promised he would receive a specific type of credit for the workshop when completed. The
           attendee3provided this letter, which specifically stated the type of credit he would receive. The
           attendee also provided a copy of a certificate awarding him these credits.




 NSF OIG Fonn 2 ( 1 1/02)
